                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A0503001 1
                                                                               1
                                                                               1
             As part of a proactive review of awards involving a significant amount ofparticipant support
     funds, we identified an award' that had been transferred from the original institution (Institution 1)2
     along with the principal investigator ( ~ 1 ) ~ 'another
                                                       to     institution (Institution 2)4 under a new award
     n ~ m b e r Institution
                 .~          1 continued to host the project and be involved although it was not named as a
     subawardee under the new award number.

             Both institutions provided documentation to support costs charged to the NSF award(s) for
     the project. Our review determined that the supporting documentation was absent for some cost
     categories, particularly room and board for participants. We also identified an absence of cost-
     sharing documentation and small data entry eri-ors. The evidence in this particular case suggested
     lapses in internal controls. For that reason, our concerns about documentation of costs and internal
     controls have been referred to the Office of Audit for review.
